                                 U.S. SMALL BUSINESS ADMINISTRATION
                                     OFFICE OF INSPECTOR GENERAL



                                                                                  ADVISORY MEMORANDUM
                                                                                        REPORT NO. 12-15


DATE:            July 16, 2012

T O:             Eric Won
                 Chief Information Officer

SUBJECT:         Weaknesses Identified During the FY 2011 Federal Information Security Management
                 Act Review

The purpose of this memorandum is to report risk areas requiring management follow-up as a result of
our most recent Federal Information System Management Act (FISMA) review. The act requires Office
of Inspectors General (OIG) to perform annual independent evaluations of their agency’s information
security program and practices to determine their effectiveness.

To determine SBA’s compliance in these areas, the OIG contracted with Independent Public Accountant
(IPA), KPMG, to perform the audit procedures relating to FISMA. The IPA interviewed SBA personnel,
inspected documentation, and tested the effectiveness of SBA’s Information Technology (IT) security
controls. The OIG monitored the IPA’s work and reported the SBA’s compliance with FISMA with the
Agency FISMA filings on November 4, 2011.

The OIG’s Fiscal Year 2011 review found that significant improvements were needed in critical computer
security areas in order for the SBA to fully meet the requirements set forth in FISMA and Office of
Management and Budget (OMB) Circular A-130.1 We performed additional fieldwork between
November 2011 and March 2012 to further clarify issues and recommend corrective actions. This work
was performed in accordance with Generally Accepted Government Auditing Standards, prescribed by
the Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

The results of our review showed that the Office of Chief Information Officer (OCIO) needs to prioritize
remediation of IT security vulnerabilities identified in prior audits. Furthermore, the OCIO also needs to
perform recertification reviews of its general support system’s end users and monitor remote access
logs for unauthorized activity. We are re-issuing a prior year recommendation relating to the OCIO’s
oversight of its IT Security Contractor.



1
    Management of Federal Information Resources

                                                     1
To prevent future degradation of its security environment, the SBA needs to immediately undertake
remediation actions to establish practices which will ensure effective oversight of potential security risks
and resolve outstanding audit recommendations.

We request that you provide your management decision for each recommendation on the attached SBA
Form 1824, Recommendation Action Sheet, 8/15/2012 (30 days after final report date). Your decision
should identify the specific actions taken or planned for each recommendation and the target dates for
completion.

                                                        ***


Background

The Federal Information Security Management Act (FISMA) requires federal agencies to develop,
implement, and report on the effectiveness of the agency’s information security program. For Fiscal
Year(FY) 2012, the OIG was required to report on the following 11 areas: 1) risk management; 2)
configuration management; 3) incident response and reporting; 4) security training; 5) plan of actions
and milestones; 6) remote access management; 7) identity and access management; 8) continuous
monitoring management; 9) contingency planning; 10) contractor systems; and 11) security capital
planning.


Results

The SBA Continues to Subject Itself to Risks through Unresolved IT Recommendations

Unresolved audit recommendations left SBA’s IT security posture vulnerable to external and internal
threats. Our review of outstanding recommendations in the FISMA controls areas showed that 30 OIG
audit recommendations remained open as of January 2012. 2

The OMB Circular A-50, on audit follow-up, states that agencies’ audit follow-up system must require
prompt resolution and corrective actions on audit recommendations. Further, resolutions shall be made
within six months and corrective actions should be implemented as soon as possible. The SBA’s
Standard Operating Procedures (SOP), Audit Follow-up System, requires program offices to complete
the implementation of recommendations within a year of management and the OIG’s agreement on the
plan.

As of January 2012, there were 30 open OIG audit recommendations in the FISMA controls areas.
One of these recommendations dated back to the OIG’s audit of SBA’s FY 2006 financial statements.
This occurred mainly due to the lack of timely implementation of the recommendations directly relating
to FISMA reporting areas. As a result, these unresolved IT recommendations left SBA’s systems
vulnerable to external and internal threats. The underlying conditions that require correction in the
open audit recommendations are integral to the SBA complying with FISMA guidance.


2
    This number does not include four open recommendations that were repeated over multiple fiscal years.

                                                         2
A complete listing of each outstanding recommendation and its particular status can be found in
Appendix 1. A summary of the recommendations by reporting area and date the corrective action was
first recommended is included below:


       Risk Management
       The oldest outstanding OIG recommendation in this category was issued on January 28, 2011.
       There are three outstanding recommendations pertaining to:
               SBA Certification and Accreditation
               System interconnections

       Configuration Management
       The oldest outstanding OIG recommendation in this category was issued on November 12, 2010.
       There are five outstanding recommendations from two audits pertaining to:
               Configuration management policies and procedures
               Baseline configurations
               Inventory

       Incident Response and Reporting
       The oldest outstanding OIG recommendation in this category was issued on November 14, 2011.
       There are two outstanding recommendations pertaining to:
               Vulnerability assessment
               Incident management

       Security Training
       The oldest outstanding OIG recommendation in this category was issued on November 12, 2010.
       There is one outstanding recommendations pertaining to:
               Training and monitoring

       Plan of Action and Milestones (POA&M)
       The oldest outstanding OIG recommendation in this category was issued on January 28, 2011.
       There is one outstanding recommendations pertaining to:
               POA&M reporting tool compliance

       Remote Access Management
       The oldest outstanding OIG recommendation in this category was issued in this report.
       There is one outstanding recommendations pertaining to:
               Log monitoring




                                                 3
       Identity and Access Management
       The oldest outstanding OIG recommendation in this category was issued on November 15, 2006.
       There are ten outstanding recommendations issued in four previous audit reports and one
       outstanding recommendation issued in this report pertaining to:
               Segregation of duties
               End user authentication
               Account management
               Least privilege

       Continuous Monitoring Management
       The oldest outstanding OIG recommendation in this category was issued on November 12, 2010.
       There are three outstanding recommendations from two audit reports pertaining to:
               Log monitoring
               Vulnerability tracking and monitoring
               Vulnerability management processes

       Contingency Planning
       The oldest outstanding OIG recommendation in this category was issued on January 28, 2011.
       There are three outstanding recommendations from two audit reports pertaining to:
               Planning and testing
               Alternate storage site

       Contractor Systems
       The oldest outstanding OIG recommendation in this category was issued on January 28, 2011.
       There is one outstanding recommendations pertaining to:
               Background investigations

       Security Capital Planning
       There are currently no outstanding recommendations for Security Capital Planning

Recommendation

We recommend that the Chief Information Officer:

   1. Develop an overall strategy to timely implement audit recommendations issued by the OIG
      relating to FISMA security requirements.




                                                   4
The SBA Has Not Fully Implemented Security Practices Outlined in Its IT Security Assistance
Contract

The SBA has a number of tasks in its IT security assistance contract with Glacier Technologies which are
not being performed. This finding was identified during our last review of FISMA and is being re-issued
due to incomplete implementation.

The SBA entered into an IT security assistance contract with Glacier Technologies to provide: 1) project
management; 2) general information security support; 3) certification and accreditation; 4) audits; 5)
FISMA reviews and analyses; 6) disaster recovery and contingency planning; 7) security operations and
vulnerability assessment; 8) information privacy support; 9) incident response management; and 10) risk
management.

We found that the SBA has not required the IT security assistance contractor to perform four specific
tasks outlined in the contract:

                Configuration Management – The contractor is to conduct configuration management
                and maintain configuration control of all SBA IT resources to include operating system
                and application system updates, revisions and patches.

                According to OCIO officials, configuration management was outside of the responsibility
                of the security assistance contractor since these services were provided by a different
                vendor. However, the establishment and monitoring of baseline configurations are
                FISMA reporting requirements and the contractor is responsible for maintaining
                configuration control according to their contract.

                Threat Analysis of Engineering Change Requests – The contractor is to perform threat
                analyses of SBA Engineering Change Requests.

                The OCIO stated that SBA’s Enterprise Change Control Board performed the threat
                analysis of SBA engineering change requests. Further, the security assistance contractor
                did not perform threat assessments. However, threat analysis is needed on change
                requests as part of documenting and testing. The testing of change requests which
                affect system baseline configurations is a FISMA reporting requirement under
                Configuration Management.

                Software Application Security – The contractor is to ensure software application
                security.

                The OCIO stated that the security assistance contractor performed vulnerability scans of
                only internal applications. However, an application security program should also include
                continuous monitoring of baseline configurations for all internal and external major
                applications.

                The monitoring of contractor baselines is a FISMA reporting requirement under
                Configuration Management and Continuous Monitoring Management.



                                                    5
                Review and prepare responses to Interagency Security Agreements – The contractor is
                to review and prepare responses to Interagency Security Agreements (ISA), Memoranda
                of Agreement (MOA), and Memoranda of Understanding (MOU).

                The OCIO stated that it has the responsibility to finalize ISAs, MOAs, and MOUs.
                These documents specify security controls used to protect SBA systems and data,
                documents the terms and conditions for sharing data, and defines the purpose of the
                interconnection. The security assistance contractor can perform the preliminary
                documentation relating to the ISA, MOA, and MOU. The lack of fully utilizing a contract
                whereby the contractor receives full remittance for services, which should be performed
                under the terms of the contract, prevents SBA from receiving the full value of its
                contract capabilities.

Recommendation

We recommend that the Chief Information Officer:

    2. Perform continuous quality assurance reviews of deliverables and quarterly reviews of IT
       security contractor performance to ensure all applicable areas of OMB and National Institute of
       Standards and Technology (NIST) compliance criteria are met.

The SBA has Not Recertified Its Network Users in Compliance with NIST Guidance

The IPA determined that SBA’s Local Area Network/Wide Area network (LAN/WAN) general support
system had not had its user population reviewed or recertified for appropriate levels of access to the
network within the past year. The timely recertification of network users is necessary to ensure that
individuals have the appropriate level of access to the network.

The NIST’s Recommended Security Controls for Federal Information Systems requires that, for access
control and account management purposes, accounts should be reviewed at an organization-defined
frequency. This review should update the accounts of authorized users to ensure that individuals have
the appropriate level of access to the network. Further, it ensures that personnel with high-level
privileges still have a need for the elevated level of access to perform their duties.

The SBA did not review and recertify its user population, including highly privileged users, to its general
support systems for appropriate access within the past year. As a result, SBA systems were vulnerable
to personnel having a greater level of access than needed and possibly performing duties for which they
were not authorized to perform.

Recommendation

We recommend that the Chief Information Officer:

    3. Perform periodic recertification reviews of end-users in agency general support systems to
       ensure that users are authorized and have current access privileges. Alternatively, design
       compensating controls for recertification for end-users of general support systems.


                                                     6
Remote Access Audit Logs Were Not Reviewed for Unauthorized Activity

The SBA remains at risk of not timely detecting unauthorized access to computer networks. The SBA’s
SOP, Automated Information System Security Program, requires system administrators and database
administrators to review and analyze audit logs at least weekly to identify unauthorized user activity and
system errors. According to OCIO officials, the SBA did not review its Virtual Private Network (VPN)
audit logs for unauthorized activity within the past year. This leaves the systems vulnerable to
individuals trying to penetrate the network through the SBA’s current remote access protocols and
gaining unauthorized access to SBA’s network and financial systems.

Recommendation

We recommend that the Chief Information Officer:

    4. Continuously monitor remote access audit logs for potential unauthorized activity.

AGENCY COMMENTS AND OIG RESPONSE

On June 5, 2012, we provided a draft of this report to the Chief Information Officer. On June 22, 2012,
the Office of Inspector General received SBA’s comments. A summary of management’s comments and
our response follows.

Agency Comments

The CIO agreed to the accuracy of the current and prior year recommendations, provided updates on
statuses, and adjusted closure dates. The OCIO closed one recommendation since the completion of the
OIG’s fieldwork and stated that they were working hard to remediate the remaining open findings.

Additionally, the CIO stated that configuration management is being performed by the Office of
Communications and Technology Services and they are in the process of having the item removed from
their security assistance contract.

OIG Response

We found that the OCIO concurred with our findings and recommendations. Included in the OCIO’s
response were revised completion dates of outstanding audit recommendations referenced in
Appendix I.

Actions Required

Please provide your management decision for each recommendation on the attached SBA Forms 1824,
Recommendation Action Sheet, within 30 days from the date of this report. Your decision should
identify the specific action(s) taken or planned for each recommendation and the target date(s) for
completion.

We appreciate the courtesies and cooperation of the Small Business Administration during this audit.


                                                    7
If you have any questions concerning this report, please call me at (202) 205-7390 or Jeff Brindle,
Director, IT and Financial Management Group at (202) 205-7490.



                                                   ***


/S/ original signed.
John K. Needham
Assistant Inspector General for Auditing




                                                    8
Appendix I: Open Current and Prior Year FISMA Recommendations

FISMA Open Recommendations Relating to our Department of Homeland Security Cyber-Scope
Evaluation (All recommendations are to the Chief Information Officer unless otherwise noted)
Risk Management – The organization develops and implements a comprehensive strategy to manage risk to IT
organizational operations and assets.

         Update the list of Major Systems to include all the interfaces between each system and all other systems and
         networks, including those not operated by, or under the control of the agency and obtain written
         Interconnection Security Agreements for every SBA system that has an interconnection to another system.
         Recommendation Closure was due 9/30/2011.

         Establish a program at SBA to manage, control and monitor system interconnections throughout their
         lifecycle. The program should encompass planning, establishing, maintaining and terminating system
         interconnections, including enforcement of security requirements. Recommendation Closure was due
         9/30/2011.

         Revise the SBA Certification and Accreditation Program Description procedural document to reflect the risk
         management framework approach established in NIST SP 800-37, Rev.1 and the current POA&M process.
         Recommendation Closure was due 6/30/2011.

Configuration Management – The organization develops minimally acceptable system configuration requirements to
ensure a baseline level of security for its IT operations and assets.

         Develop configuration management policies and procedures that address purpose, scope, roles,
         responsibilities, management commitment, coordination among organizational entities, and compliance.
         Recommendation Closure was due 9/30/2011.

         Develop and maintain a centralized inventory of all agency hardware and software. Recommendation Closure
         was due 9/30/2011.

         Develop and document baseline configurations for each information system and maintain the baseline under
         configuration control. Recommendation Closure was due 9/30/2011.

         Implement configuration management policies and procedures for document retention (to include
         supporting evidence) to validate the authorization of operating system changes. Recommendation closure is
         due 9/28/2012.

         Enforce an organization-wide configuration management process, to include policies and procedures for
         maintaining documentation that supports testing and approvals of software changes. This recommendation
         was reported in audits of SBA’s financial statement for FY 2010 and FY 2011. The original recommendation
         closure was due 4/30/2011.




                                                             9
Incident Response and Reporting –The organization establishes an incident handling capability as well as tracking,
documenting and reporting incidents to appropriate authorities.

         Update the vulnerability assessment team (VAT) procedures, to include: (a) updating the VAT policies and
         procedures in accordance with NIST, (b) performing technical reviews of the results for critical issues that
         need immediate action and take timely corrective action, (c) executing procedures to monitor the completion
         of the patch management deployment across the SBA enterprise, and (d) prioritizing vulnerabilities as part of
         the ongoing continuous monitoring process. Recommendation closure was due 3/31/2012.

         Coordinate with SBA program offices to fully implement the SBA entity wide incident management and
         response program and ensure that procedures are enforced. Recommendation closure was due 2/29/2012.

Security Training – The organization ensures that users of information systems are aware of IT security risks,
compliance with applicable laws and regulations, and that personnel are trained in their security-related
responsibilities.

         Develop a comprehensive security education and training program for all IT security personnel and a method
         for monitoring the training program. This recommendation was reported in audits of SBA’s financial
         statement for FY 2010 and FY 2011. The original recommendation closure was due 6/1/2011.

Plan of Actions and Milestones (POA&M) – The organization implements plans of action designed to correct
deficiencies and reduce or eliminate vulnerabilities in information systems.

         Modify the POA&M reporting tool to comply with the requirements set forth in OMB Memorandum 04-25.
         Recommendation closure was due 4/30/2011.

Remote Access Management – The organization documents allowed methods of remote access, establish usage
restrictions, and monitor for unauthorized remote access.

         Continuously monitor remote access audit logs for potential unauthorized activity. (Current Year FISMA
         Review Recommendation)




                                                               10
Identity and Access Management – The organization identifies and authenticates system users, and limits system users
to the information, functions, and information systems those users are authorized to operate.

         Prevent users from anonymously connecting unauthorized devices by developing and implementing
         procedures to ensure mandatory domain authentication for IP address issuance. This recommendation was
         reported in audits of SBA’s financial statement for FY 2010 and FY 2011. The original recommendation closure
         was due 4/15/2011.

         Coordinate with SBA program offices to ensure users access rights are authorized prior to gaining access to
         financial systems. Recommendation closure was due 3/30/2012.

         Coordinate with SBA program offices to develop and implement procedures for user access reviews to ensure
         that the proper access rights are set for financial subsystems. This recommendation was reported in audits of
         SBA’s financial statement for FY 2010 and FY 2011. The original recommendation closure was due 4/29/2011.

         Oversee the review and validation of financial system accounts on a quarterly basis. Recommendation
         closure is due 4/30/2012.

         Enforce financial system password controls for System Administrators and Database Administrators and
         physical access controls in accordance with SBA SOP 90.47.2. Recommendation closure was due 3/18/2011.

         The Chief Operating Officer in conjunction with program offices, document and implement segregation of
         duty policies and procedures for LAS. Recommendation closure was due 12/15/2010.

         The Chief Operating Officer in conjunction with appropriate program officials should ensure that policies are
         implemented regarding segregation of duties for FRIS, JAAMS, DCMS, and LAS. Recommendation closure was
         due 6/30/2011.

         Perform periodic recertification reviews of end-users in agency general support systems to ensure that users
         are authorized and have current access privileges. Alternatively, design compensating controls for
         recertification for end-users of general support systems. (Current Year FISMA Review Recommendation)

         Restrict access to software program libraries based on the principle of least privilege, and implement
         compensating controls over actions where limited resources cause individuals to perform conflicting job
         functions. Recommendation closure is due 6/30/2012.


         Ensure that database administrators and system administrator access is restricted through role-based
         segregation of duties and managed through an effective audit log review process. Recommendation closure
         is due 6/30/2012.




                                                             11
Continuous Monitoring Management – The organization establishes a continuous monitoring capability for
configuration control as well as performing ongoing security assessments of the information system.

         Implement a process to review the audit logs of all financial applications on a regular basis. Oversee the
         review and validation of financial system accounts on a quarterly basis. Recommendation closure was due
         3/30/2012.

         Improve the vulnerability tracking and monitoring process to fully address high and medium risk
         vulnerabilities for key financial systems. Ensure that the vulnerability reports are reviewed and analyzed on a
         regular basis. Periodically monitor the existence of necessary services and protocols running on servers and
         network devices. Develop a more thorough approach to track and mitigate patch management and
         configuration management vulnerabilities identified during monthly scans. Recommendation closure was due
         4/30/2011.

         Enhance security vulnerability management processes. Specifically, SBA should: (a) redistribute procedures
         and train employees on the process for reviewing and mitigating security vulnerabilities, (b) periodically
         monitor the existence of unnecessary services and protocols running on their servers and network devices, (c)
         perform vulnerability assessments with administrative credentials and penetration tests on all SBA offices
         from a centrally managed location with a standardized reporting mechanism that allows for trending, on a
         regularly scheduled basis in accordance with National Institute of Standards and Technology (NIST) guidance,
         (d) develop a more thorough approach to track and mitigate configuration management vulnerabilities
         identified during monthly scans, and (e) monitor security vulnerability reports for necessary or required
         configuration changes to their environment. Recommendation closure was due 3/31/2012.

Contingency Planning – The organization implements plans for emergency response, backup operations, and post-
disaster recovery for organizational information systems.

         Develop and test system disaster recovery plans for all of SBA’s major systems at least annually and initiate
         any necessary corrective actions based on test results. Recommendation closure was due 7/30/2011.

         Enforce existing SBA policies to rotate backups off-site. Recommendation closure is due 4/30/2012.

         Coordinate with the Chief Financial Officer to create, implement, and test system specific and the
         Headquarter Continuity of Operations Plan. Recommendation closure is due 7/30/2012.
Contractor Systems – The organization ensures that its contractors abide by FISMA requirements.

          Enforce SOP 90-47 2 requirements for contractor background investigations and perform periodic reviews to
          ensure that SBA contractors have completed the clearance process prior to accessing sensitive information.
          Recommendation closure was due 5/30/2011.
Security Capital Planning – The organization ensures that the resources needed to implement the IT security program
are available for expenditure as planned.

         No current recommendations exist for Security Capital Planning.




                                                              12
Prior Coverage
Multiple audits and reviews have been conducted between 2003 and 2011 related to FISMA.
The OIG reports used in this audit, which can be accessed at http://www.sba.gov/office-of-inspector-
general include:

        Audit of SBA’s FY 2011 Financial Statements – Management Letter, November 14, 2011, Report
        Number 12-02
        OIG FISMA Report 11-06—Weakness Identified During the FY 2010 Federal Information Security
        Management Act Review, Report Number 11-06.
        Audit of SBA’s FY 2010 Financial Statements – Management Letter, December 15, 2010, Report
        Number 11-03.
        Audit of SBA’s FY 2008 Financial Statements – Report Number 09-03.
        Audit of SBA’s FY 2006 Financial Statements – Report Number 07-03.




                                                  13
Appendix II: Agency Comments




                         U.S. SMALL BUSINESS ADMINISTRATION
                          OFFICE OF THE CHIEF INFORMATION OFFICER




DATE:       June 21, 2012

TO:         John K. Needham
            Assistant Inspector General for Auditing

SUBJECT: Response – Weaknesses Identified During the FY2011 Federal Information
         Security Management Act (FISMA) Review

The purpose of this memorandum is to provide a response to the Office of Inspector General’s
memorandum regarding FY 2011 FISMA weaknesses.

The following written comments are submitted for your review and acceptance.

   Page 5, bullet 1 and Page 4, Recommendation 1
   The Glacier contract is in the process of being modified to remove the Configuration
   Management task that the contractor is not required to perform. This task is covered under
   the Office of Communications and Technology Services.

   Pages 8-11, Appendix I: Open Current and Prior Year FISMA Recommendations
   The Open Current and Prior Year FISMA recommendations are still accurate. However,
   OCIO is diligently working to remediate the open findings. The following response includes
   proposed adjusted closure dates for your review and acceptance.

We appreciate the opportunity to comment and look forward to reviewing the final action
memorandum.




/s/ Original Signed
Eric Won
SBA Chief Information Officer




                                              14
